July 16, 2008

TERRY J. WILSON
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT:         Audit Report – Miami Airport Mail Center Outsourcing
                 (Report Number EN-AR-08-004)

This report presents the results of our audit of the Miami, Florida Airport Mail Center
(AMC) outsourcing initiative (Project Number 08XG013EN000). Our objectives were to
evaluate the planning process, the operational and monetary impacts of this initiative,
and its compliance with policies and procedures. The report responds to a request from
the U.S. Postal Service and is part of our Value Proposition Agreement.1 This is the
second in a series of reviews examining outsourcing initiatives.2 Click here to go to
Appendix A for additional information about this audit.

Conclusion

The Postal Service’s planning for the Miami AMC outsourcing initiative appeared
adequate. Additionally, the Postal Service’s decision to outsource some operations at
the Miami AMC was supported and should reduce costs with minimal impact on service
performance. Management generally complied with existing policies and procedures.
To further enhance the process, we previously recommended the Postal Service
conduct a post-implementation process to measure the results of this initiative.

Planning for Outsourcing

Planning for outsourcing of the Miami AMC appeared adequate, considering the facility
was heavily damaged by Hurricane Wilma, which struck in late October 2005. The
contract for sortation of destinating mail was established in late September 2006.
Implementation of a permanent contract was delayed by the Article 32 process.3
Consequently, management made modifications to the temporary contract until the
Article 32 process was completed. Click here to go to Appendix B for our analysis of
this topic.

1
  A value proposition is a signed agreement between the U.S. Postal Service Office of Inspector General (OIG) and
management to perform one or more specific audits in an agreed-upon time period.
2
  AMC outsourcing is one of many outsourcing initiatives of the Postal Service. Outsourcing is the use of outside
resources to perform activities that internal staff and resources traditionally handle.
3
  Article 32 of the Collective Bargaining Agreement between the Postal Service and labor unions requires the Postal
Service to meet with unions while developing an initial comparative analysis and to consider the unions’ views of
costs and other factors in discussions of outsourcing.
Miami Airport Mail Center Outsourcing                                                                  EN-AR-08-004




Operational Impact

The operational impacts of the outsourcing of the Miami AMC were minimal, and
outsourcing should reduce costs. Management eliminated excess capacity and
reduced staff by an equivalent of 130 employees. Also, outsourcing had minimal impact
on service performance. Click here to go to Appendix B for our detailed analysis of this
topic.

Monetary Impact

Management’s projected cost savings for the outsourcing of the Miami AMC were
generally supported. However, management underestimated the cost savings by
approximately $3.3 million. This occurred because there was no specific guidance for
preparing a cost savings analysis for closing and outsourcing AMC operations.
Consequently, the analysis may not show the actual cost savings from outsourcing the
Miami AMC. Click here to go to Appendix B for our detailed analysis of this topic.

Compliance with Policies and Procedures

Management generally complied with outsourcing policies and procedures for the Miami
AMC, while dealing with the effects of a hurricane. Management considered
outsourcing policies and procedures before outsourcing the sortation of destinating mail
in Miami. Click here to go to Appendix B for our detailed analysis of this topic.

Measuring Results

Management did not conduct a post-implementation review (PIR) after outsourcing the
Miami AMC to determine whether the outsourcing was cost-effective. The Postal
Service had not established post-implementation guidance at the time the outsourcing
was initiated. In a previous AMC outsourcing report, we recommended Postal Service
Headquarters management develop4 a PIR process, and they are currently developing
guidance. Without a review, there is no assurance that the outsourcing initiative
achieved anticipated results. Click here to go to Appendix B for our detailed analysis of
this topic.

Risk Factors

We determined that outsourcing Postal Service functions presents several potential
risks that should be considered prior to outsourcing. Click here to go to Appendix B for
our detailed analysis of this topic.

We recommend the Vice President, Southeast Area:

4
    St. Louis Airport Mail Center Outsourcing (Report Number EN-AR-08-002, dated February 29, 2008).




                                                         2
Miami Airport Mail Center Outsourcing                                                                   EN-AR-08-004




1. Perform a post-implementation review (PIR) to determine the cost savings from this
   initiative5 once PIR guidance has been developed by headquarters management.

Management’s Comments

Management agreed with our findings and recommendation and will implement
corrective action. Management’s comments, in their entirety, are included in
Appendix J.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation in the
report. The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed. Management’s corrective actions should resolve the
issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, Director,
Network Optimization, or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt
for
Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Tammy J. Autenrieth
    Cynthia F. Mallonee
    Katherine S. Banks




5
    Savings and cost estimates should be revised to include additional transportation required after the AMC closed.




                                                            3
Miami Airport Mail Center Outsourcing                                                              EN-AR-08-004




                                   APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service maintains AMCs and airport mail facilities (AMF)6 to expedite the
transfer of mail to and from commercial air carriers. This transfer is called the tender
and receipt of mail. In many cases, these airport facilities have excess capacity as a
result of declining volumes of mail tendered to commercial air carriers. Commercial air
volume has declined from approximately 837 million pounds of mail in fiscal year (FY)
2004 to 368 million pounds in FY 2007. Figure 1 shows this trend. To address this
issue, the Postal Service began standardizing AMCs by returning non-core AMC
operations to processing and distribution centers (P&DC) and bulk mail centers (BMC).
This standardization enabled the Postal Service to reduce inefficiency, improve
productivity, and reduce costs at AMCs.


                                   Figure 1. Commercial Air Mail
                                           Volume Trend


                          1,000
     Pounds in Millions




                           500

                             0
                                  FY 2004      FY 2005               FY 2006                FY 2007

The Postal Service identified Network Integration and Alignment (NIA) as a strategy in
the Transformation Plan.7 NIA’s charter was to create a flexible logistics network that
would reduce costs for both the Postal Service and its customers, increase operational
effectiveness, and improve consistency of service. In 2003, the President’s
Commission8 found the Postal Service had more facilities than needed and
recommended optimizing the facility network.



6
  We use the term AMC in this report to refer to both AMCs and AMFs, which perform essentially the same functions
and have the same operations. AMCs are generally larger than AMFs.
7
  United States Postal Service’s Transformation Plan, dated April 2002.
8
  Report of the President’s Commission on the United States Postal Service, dated July 31, 2003.




                                                        4
Miami Airport Mail Center Outsourcing                                                           EN-AR-08-004



The Strategic Transformation Plan 2006-20109 stated the efforts to create a flexible
network to increase productivity and effectiveness — formerly called NIA — would
continue as an evolutionary process called Evolutionary Network Development. One of
these efforts was to reexamine the role of AMCs to determine whether these facilities
could be reduced and better coordinated using third-party facilities (contracting out).
The 2006 Annual Progress Report10 noted that because of the consolidation of air
contractors and expansion of the surface transportation network, the Postal Service was
reviewing AMCs. At that time, management was considering contracting out operations
at 43 AMCs. The Strategic Transformation Plan 2006-2010, 2007 Update11 noted that
some non-core operations were transferred from AMCs to processing plants. More than
40 facilities were standardized, and additional facilities were to be standardized in 2008.

In December 2006, the Postal Accountability and Enhancement Act12 (Postal Act of
2006) required the Postal Service to provide a facilities plan that would include a
strategy for rationalizing the facilities network and removing excess processing capacity
and space from the network.

Because of security restrictions imposed by the Federal Aviation Administration after
September 11, 2001, the Postal Service no longer used commercial passenger aircraft
for Priority Mail®. Consequently, there was a significant decrease in the volume of mail
tendered to commercial passenger carriers. Priority Mail was tendered to Federal
Express and United Parcel Service and containerized by terminal handling services in
specially configured facilities. This contributed to the underutilization of AMC facilities.
Before the initiative to outsource and reduce the number of AMCs, the Postal Service
had 80 AMCs — 12 percent of the facilities in the processing network. Click here to go
to Appendix C for the status and disposition of AMCs as of March 31, 2008.

In January 2006, management implemented a nationwide integrated air strategy that
included reducing reliance on passenger airlines; renegotiating and renewing the
Federal Express contract; and where possible, shifting mail moved by air to less costly
ground transportation. This strategy would allow the Postal Service to eliminate
infrastructure because contractors would perform tender and receipt of mail and other
AMC core operations, reducing or eliminating the need for some AMCs.

In September 2006, the Postal Service issued a new commercial air contract with seven
air carriers: American Airlines, American Trans Air, Continental, Jet Blue, Midwest
Express, Sun Country, and US Airways/America West. In April 2007, the Postal Service
added an eighth air carrier, United Airlines, on a trial basis. The previous commercial
air contract used 17 air carriers. At the same time, the Postal Service continued with its
air-to-surface initiative, which diverted 3-day First-Class Mail® volume to surface


9
  Strategic Transformation Plan 2006-2010, dated September 2005.
10
   Strategic Transformation Plan 2006-2010, 2006 Annual Progress Report, dated December 2006.
11
   Strategic Transformation Plan 2006-2010, 2007 Update, dated December 2007.
12
   Postal Accountability and Enhancement Act, Public Law 109-435, dated December 2006.




                                                      5
Miami Airport Mail Center Outsourcing                                         EN-AR-08-004



transportation. This reduction of air carriers and increased use of surface transportation
provided an opportunity to use direct tender and receipt of mail.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to evaluate planning for the Miami AMC outsourcing initiative, its
operational and monetary impacts, and compliance with relevant policies and
procedures. To accomplish the objectives, we interviewed Postal Service managers;
visited the Miami, Florida, P&DC, a P&DC annex, the former Miami AMC, and the
current contractor’s facility; and performed a limited review of Article 12 and Article 32
processes the Postal Service followed to terminate and outsource AMC operations. We
also reviewed the outsourcing cost analysis for accuracy and support, and service
performance before and after the hurricane and after some core operations were
outsourced. In addition, we reviewed available guidance for outsourcing mail
processing operations at AMCs, and the implications of the Postal Act of 2006.

We relied on several Postal Service data systems: Web Management Operating Data
System and Enterprise Data Warehouse System, which includes the Transit Time
Measurement System. We did not test the controls over these systems. However, we
checked the accuracy and reasonableness of the data by confirming our analysis and
results with management and by consulting different data sources. We found no
material differences. Because the comparative analysis developed to evaluate AMC
outsourcing could not be used to project cost savings, we relied on other documents to
complete our analysis.

We conducted this performance audit from November 2007 through July 2008 in
accordance with generally accepted government auditing standards and included tests
of internal controls that were necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on April 29, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

The report titled St. Louis Airport Mail Center Outsourcing (Report Number EN-AR-08-
002, dated February 29, 2008) found that the decision to outsource some operations at
the St. Louis AMC was supported and should reduce costs with minimal impact on
service performance. However, management could have improved planning for this
initiative. Management generally complied with policies and procedures, but
opportunities existed to formalize lessons learned and best practices and enhance
guidance for measuring results. Management agreed with our recommendations to




                                            6
Miami Airport Mail Center Outsourcing                                      EN-AR-08-004



formalize lessons learned, establish a PIR program for AMCs, and conduct a PIR for the
St. Louis AMC.

GOVERNMENT ACCOUNTABILITY OFFICE AUDIT

On August 28, 2007, the Government Accountability Office (GAO) announced a review
of Postal Service outsourcing. The GAO plans to assess recent trends and future plans
in outsourcing; how the Postal Service manages, oversees, and measures performance
of outsourcing functions; and estimated cost savings of outsourcing functions.




                                          7
Miami Airport Mail Center Outsourcing                                                                     EN-AR-08-004




                                  APPENDIX B: DETAILED ANALYSIS

Planning for Outsourcing

The outsourcing of some operations at the Miami AMC met the organization’s strategic
goal of realigning the network to reduce costs. Planning for the outsourcing of sortation
of destinating mail from the Miami AMC appeared adequate, considering the facility was
heavily damaged by a hurricane and management had to expedite the closure and
outsourcing of the AMC.

      •   Hurricane Wilma struck the Miami, Florida, area on October 24, 2005, severely
          damaging the Miami AMC. Portions of the roof were torn off and the interior of
          the building sustained water damage. Click here to go to Appendix D for
          photographs of the damage to the Miami AMC from Hurricane Wilma.
          Management took aggressive action, and within a few days after the hurricane
          struck, mail processing was restarted. All AMC operations and personnel were
          relocated, mainly to the Miami P&DC. In addition, management arranged
          temporary transportation to move the mail between the P&DC, the airlines, and
          the Miami International Service Center (ISC). In mid-November 2005, the
          unions were notified that the facility would not reopen.

      •   The Article 32 process for the Miami AMC began in November 2005 when
          management provided the unions a draft initial comparative analysis. This
          comparative analysis indicated outsourcing the core operations13 of dispatch
          and receipt of mail at the Miami AMC would be more efficient and cost-effective
          than opening and operating an airport transfer center (ATC).14 The analysis
          used an ATC as a baseline for comparison purposes.15 The comparison was
          made using the assumption that the ATC would perform only the core
          operations of dispatch, receipt, and ramp activities at the facility. The Article 32
          process was completed at the end of September 2006. The final comparative
          analysis compared an ATC with outsourcing the handling of destinating mail.16
          Management did not perform an analysis that compared the benefits of moving
          all AMC operations to other Postal Service facilities. Management stated that
          due to the damage to the AMC following the hurricane, the facility was
          uninhabitable. Therefore, it was not feasible to follow the standard process.

13
   AMC core functions include assigning mail to flights, receiving and dispatching mail to and from air carriers (tender
and receipt of mail), accepting and sorting mail to and from plants, performing quality control of air carrier operations,
and managing functions specific to airport operations.
14
   An ATC is a facility operated by Postal Service employees responsible for tendering and receiving mail to
commercial airlines.
15
   In outsourcing guidance, this is referred to as the most efficient internal operation.
16
   Outsourcing at the Miami AMC covered the handling of destinating mail only. Originating mail is processed at local
Postal Service facilities. The handling of destinating mail includes receiving incoming mail from air transportation
suppliers; scanning and separating mail into ZIP Code ranges (sortation); and containerizing the mail for dispatch to
other Postal Service facilities for delivery.




                                                            8
Miami Airport Mail Center Outsourcing                                                                EN-AR-08-004




     •    After the hurricane, Postal Service management and American Airlines
          management worked together to ensure the continuous flow of mail. On
          February 6, 2006, American Airlines officially began sortation of some mail
          previously sorted at the AMC. This sortation was performed in the American
          Airlines cargo facility at the Miami International Airport. During the Article 32
          process, Postal Service management modified the 2003 Commercial Air
          (CAIR-03) contract17 to include the handling of destinating mail in Miami by
          American Airlines. This modification was extended twice. Management
          solicited bids from several airlines in Miami, but no other airline was interested
          in handling this mail. Through the Article 32 process and modifications to the
          current CAIR-06 contract, American Airlines was awarded permanent contracts
          at the end of September 2006 for handling domestic and international mail in
          Miami. The Article 32 process took approximately 11 months. Click here to go
          to Appendix E for a timeline of the sequence of events for the Miami AMC after
          the hurricane and a second timeline of the Miami AMC outsourcing initiative.

Because of the time required to complete the Article 32 process, management had to
make multiple modifications to the temporary contract. In addition, management may
have overlooked some viable planning options by comparing outsourcing only to an
ATC.

Operational Impact

We concluded that by outsourcing some functions of the Miami AMC and performing the
remaining functions in other Postal Service facilities, management eliminated excess
capacity with minimal impact on service performance.

     •    Excess Capacity – Relocating operations and outsourcing some Miami AMC
          functions reduced the number of employees and workhours and permitted
          elimination of a facility. These actions should reduce costs.

          o Management reduced staff by an equivalent of 130 employees after closing
            the Miami AMC and outsourcing the sortation of destinating mail. Before the
            hurricane struck and the Miami AMC was closed, 239 employees were
            performing core and non-core AMC operations. After all AMC operations
            were moved to other facilities, 79 employees continued to perform AMC-type
            work. An additional 30 employees were added to the Miami P&DC to
            perform operations previously conducted at the Miami AMC.

          o By closing the AMC and outsourcing its functions, management eliminated
            the need for a facility in a high-cost location. The Postal Service leased both

17
   CAIR-03 was the predecessor to the current contract, CAIR-06, for transportation of domestic mail by passenger
airlines.




                                                         9
Miami Airport Mail Center Outsourcing                                                               EN-AR-08-004



                  the land and building for the Miami AMC at a cost of $2,062,019 annually.
                  The lease was scheduled to expire on July 31, 2008.

        •    Service Performance – We concluded that outsourcing some Miami AMC
             operations had minimal impact on service performance. We evaluated service
             performance for 2- and 3-day destinating First-Class Mail starting in May 2005,
             before Hurricanes Katrina and Wilma; in FY 2006, after the hurricane had
             damaged the facility and all operations had been relocated; and in FY 2007,
             after some operations had been outsourced. Service performance was initially
             affected by the hurricanes, but gradually improved.

             o On-time service performance for 2-day destinating mail decreased to 83.4
               percent in October 2005, but by February 2006 had increased to 92.7
               percent. The goal was 91 percent in FY 2005 and 92 percent in FYs 2006
               and 2007. Click here to go to Chart 1, Appendix F, for 2-day on-time service
               performance by month.

             o On-time service performance for 3-day destinating mail dropped to 76.6
               percent in October 2005 and 66.5 percent in December 2005, but increased
               to 89.9 percent by March 2006. The goal was 90 percent for all 3 fiscal
               years. Click here to go to Chart 2, Appendix F, for 3-day on-time service
               performance by month.

             o The drop in service performance may have been partially due to the
               Christmas mailing season.

            The Postal Service measured contractor performance for the Miami AMC
            operations by delivery scans. The contract for handling destinating mail in Miami
            required that each mail handling unit18 be scanned, placed into Postal Service
            containers, and made available for Postal Service employees to pick up within
            1 hour after accepting the mail from the air transportation supplier. Mail that is
            not scanned may result in nonpayment to the contractor. The contractor’s on-
            time performance exceeded the standard of 93 percent in 9 of the 12 months
            during the first year of the contract. On-time performance ranged from a low of
            88.1 percent to a high of 96.9 percent. Click here to go to Chart 3, Appendix G,
            for contractor performance.




18
     A handling unit is defined as an individual package, parcel, letter tray, flat tub, or sack.




                                                                10
Miami Airport Mail Center Outsourcing                                                                  EN-AR-08-004



Monetary Impact

Our analysis determined that Postal Service cost savings projections were generally
supported, but may be underestimated by approximately $3.3 million. Management
estimated a total cost savings of approximately $4.2 million; however, we estimated a
total cost savings of approximately $7.5 million.19 Table 1 compares cost savings
calculated by the Postal Service to OIG calculations.

                                         TABLE 1. PROJECTED COST SAVINGS
                                                             Postal Service
                                           OIG Projections    Projections                  Difference
                  Labor                  $        6,267,199 $     2,529,759 $                    3,737,440
                  Facility                        2,062,019       2,062,019                              0
                  Transportation                   (283,586)              0                       (283,586)
                  Other Costs                       245,739         103,170                        142,569
                  Contract                         (771,571)       (456,953)                      (314,618)
                  Total                  $        7,519,800 $     4,237,995 $                    3,281,805

We attributed the understatement to the following factors:

      •   Management used FY 2006 actual costs for labor and other costs. FY 2006
          expenditures were considerably less than FY 2005 expenditures because FY
          2006 only included a few months of AMC expenses.

      •   Management did not include additional transportation costs required for
          movement of mail to and from the contractor facility.

      •   Management estimated contract costs at the FY 2006 commercial volumes at
          $.025 per pound. Management did not include international volumes at $.055
          per pound.

Savings projected by the Postal Service did not include all costs or savings because
there was no specific guidance for determining what to include in a cost savings
analysis for closing and outsourcing AMC operations and no specified time period to
use for an analysis. 20 Consequently, the analysis may not show the actual cost savings
of outsourcing the Miami AMC.




19
   We used FY 2005 data (the year before the hurricane) to capture all labor and other cost savings associated with
the closure and outsourcing of the Miami AMC.
20
   The Postal Service included one-time costs for partial year rent, facility start-up costs, equipment moving, and
restoration, which are not reflected in the projected cost savings chart. Restoration one-time costs of $187,000 were
associated with returning the facility to its original condition.




                                                         11
Miami Airport Mail Center Outsourcing                                                                   EN-AR-08-004



Compliance with Policies and Procedures

Management generally complied with outsourcing policies and procedures, including
Article 1221 and Article 32 of the national agreement with the unions, although
compliance may be tested by arbitration. In November 2005, shortly after Hurricane
Wilma heavily damaged the Miami AMC, management advised the unions that the
Miami AMC facility would not reopen. Management met with the unions while
developing the comparative analysis for the Miami AMC, as required by Article 32 of the
national union agreements. Article 32 requires the Postal Service to consider five
factors when considering outsourcing. The Postal Service’s and the OIG’s
consideration of the five factors are described in Appendix H.

The National Postal Mail Handlers Union and the American Postal Workers Union
initiated a national dispute regarding the Article 32 process for outsourcing the Miami
AMC. This dispute has not been arbitrated and is not scheduled for arbitration.

Measuring Results

Management generally complied with outsourcing policy and procedures during the
Miami AMC closure. Based on our review of the St. Louis AMC outsourcing, we
recommended and management agreed to establish a policy requiring PIR-type
reviews.22 However, at the time of the Miami AMC closure, management did not require
PIRs for outsourcing initiatives. A PIR process would help improve management
accountability and transparency and indicate whether the outsourcing initiative achieved
the anticipated results.

The Postal Act of 2006 requires the Postal Service to establish a facilities plan, which
must include information on cost-saving initiatives. The Postal Act of 2006 also requires
the Postal Service to submit an annual report to Congress on how its decisions have
impacted or will impact network rationalization plans. This report must include actions
taken to identify excess capacity in the processing, transportation, and distribution
networks, and must state how the Postal Service saved funds by realigning or
consolidating facilities. The report must include overall estimated costs and cost
savings.

Comparing projected with actual results after outsourcing and closing an AMC ensures
accountability for decision making, helps management meet goals and objectives, and
informs Congress about how outsourcing and closing a facility affects network
rationalization.


21
   Article 12 of the Collective Bargaining Agreement applies when a major relocation of employees is planned in a
major metropolitan area. The Postal Service must meet with the unions at the national level at least 90 days in
advance of the plan’s implementation and must also meet with unions at the regional level in advance of the
relocation (6 months in advance, if possible). When an independent installation is discontinued, full-time and part-
time employees will be involuntarily reassigned to continuing installations, to the maximum extent possible.
22
   St. Louis Airport Mail Center Outsourcing (Report Number EN-AR-08-002, dated February 29, 2008).




                                                          12
Miami Airport Mail Center Outsourcing                                        EN-AR-08-004



Risk Factors

Outsourcing Postal Service functions has several potential risks that should be
addressed prior to outsourcing. The risk factors are contracting out, labor agreements,
contingent liabilities, process efficiency, customer service, and security of the mail.
Click here to go to Appendix I for details.




                                           13
Miami Airport Mail Center Outsourcing                                         EN-AR-08-004




                  APPENDIX C: STATUS OF AIRPORT MAIL CENTERS
                              AS OF MARCH 31, 2008




                                  Status of AMCs as of March 31, 2008
                                                                         Number of
                                                                          Facilities
                Outsourced                                                         13
                Planned to be outsourced (date to be determined)                   11
                Direct tender/receipt (in-house)                                   12
                To be direct tender/receipt                                          1
                Changing from in-house to outsourced                                 1
                Not considered for outsourcing                                       4
                Reclassifying as P&DC                                                8
                Reclassifying as carrier unit                                        2


                Note: The Miami AMC is one of the 13 outsourced facilities.




                                              14
Miami Airport Mail Center Outsourcing                                  EN-AR-08-004




             APPENDIX D: PICTURES OF HURRICANE DAMAGE TO THE MIAMI
                            AIRPORT MAIL CENTER

                  Roof and Inside of Miami AMC After Hurricane Wilma




                                          15
Miami Airport Mail Center Outsourcing                                   EN-AR-08-004




                   Ceiling and Roof of Miami AMC from Inside Building




                                           16
Miami Airport Mail Center Outsourcing                             EN-AR-08-004




                           Miami AMC Roof with Sections Missing




                                            17
Miami Airport Mail Center Outsourcing                                                                                                                          EN-AR-08-004



                                              APPENDIX E: MIAMI AIRPORT MAIL CENTER TIMELINE




                                    Sequence of Events After Hurricane
                            AA performed emergency sortation - AA                             Mod 10 of CAIR-03 contract effective 4-
                            inbound only (after hurricane until        Through Mod 9 of CAIR- 1-06 through 6-30-06                     Contract extended from 7-1-06 through
                            2-6-06)                                    03 contract, AA began                                           9-30-06 through Mod 11 of CAIR-03-AA
                                                                       separations 2-6-06
                                                                       through 3-31-06
                                                                                                                                                       Effective date of
                                                                                                CO, HP, & US started                                   contract (9-30-06)
          Hurricane Wilma                                                                       delivering mail to AA (5-
          (10-24-05)                                                                            6-06)
                                                                                                                                  RFP sent to airlines
                                                                                                                                  (8-4-06)



            Oct-05       Nov-05        Dec-05       Jan-06      Feb-06         Mar-06        Apr-06     May-06       Jun-06        Jul-06       Aug-06        Sep-06
            Mail processing                                                                             UA & DL started                     SY & US declined to
                                   Temporary HCR service
            restarted at                                                                                delivering mail to AA               bid on contract (8-
                                   established under HCR 331AJ (11-8
            Miami P&DC                                                                                   (5-13-06)                          06)
                                   05)*
            (10-28-05)
                                Emergency MVS
                                                                                                                                                      Temporary HCR
                                transportation to/from each
                                                                                                                                                      contract for ISC
                                air carrier
                                                                                                                                                      effective 10-1-06
                                                                                                                                                      through 6-30-08




     Abbreviations/Acronyms:                                                                                 *Temporary service added to HCR contract effective
        AA – American Airlines                            MVS – motor vehicle service                        1/6/07.
        CO – Continental Airlines                         RFP – request for proposal
        DL – Delta Airlines                               SY – Sun Country Airlines
        HCR – highway contract route                      UA – United Airlines
        HP – America West Airlines                        US – US Airways
        Mod – modification




                                                                                        18
Miami Airport Mail Center Outsourcing                                                                                                                   EN-AR-08-004




                                  Outsourcing of Miami AMC Timeline
                                                                        Meetings w ith
                                                                        Unions (12-13                          Finance validated CA (9-19-06)
                                                                                            Outsourcing
                                                                        and 12-14-05)
                                                                                            Contract dated
           Unions advised of                                               Correspondence 8-18-06*
           review of future                   AMC closed after             betw een unions                       Labor unions advised of final decision
           needs of AMCs                      suffering major              and Postal                            to outsource (10-6-06)
           nationw ide (10-04)                damage from                  Service (1-06 to
                                              Hurricane Wilma              04-06)
                                              (10-05)




           FY05 Q 1     FY05 Q2     FY05 Q3    FY05 Q4       FY06 Q1    FY06 Q2        FY06 Q3   FY06 Q4      FY07 Q1     FY07 Q2      FY07 Q3     FY07 Q4

                                         Draft Initial CA provided to                                            Effective date of contract (9-30-06)
                                                                                                  Draft CA
           Unions advised of             unions (11-10-05)
                                                                                                  validated
           AMCs standardized
                                                                                                  by PS
           w ith return to core
                                              Unions advised AMC              Updated draft       Finance
           operations (11-04)                                                                                   Strategic Initiatives Board
                                                                              Initial CA to       (06-06)
                                              would not reopen (Article                                         aprroved decision for
                                                                              Unions
                                              12) (11-18-05)                                                    outsourcing (10-27-06)
                                                                               (05-06)




          * Modification to CAIR-06-AA




     Abbreviations/Acronyms:
        CA – Comparative Analysis
        Q – Quarter




                                                                                  19
                      Percent                                                             Percent




                       0.00
                      10.00
                      20.00
                      30.00
                      40.00
                      50.00
                      60.00
                      70.00
                      80.00
                      90.00
                     100.00
                                                                                           0.00
                                                                                          10.00
                                                                                          20.00
                                                                                          30.00
                                                                                          40.00
                                                                                          50.00
                                                                                          60.00
                                                                                          70.00
                                                                                          80.00
                                                                                          90.00
                                                                                         100.00
     MA Y                                                                MA Y
             200 5                                                               200 5
     J UN                                                                J UN
           200 5                                                               200 5
      J UL                                                                J UL
           200 5                                                               200 5
     AUG                                                                 AUG
           200 5                                                               200 5
     SEP                                                                 SEP
           2005                                                                2005
     OC T                                                                OC T
           20 05                                                               20 05
     NO V                                                                NO V
           200 5                                                               200 5
     DEC                                                                 DEC
           20 05                                                               20 05
                                                                                                                                                                               Miami Airport Mail Center Outsourcing




     J AN                                                                J AN
           20 06                                                               20 06
     FE B                                                                FE B
           200 6                                                               200 6
     MA R                                                                MA R
           2006                                                                2006
     APR                                                                 APR
           2 006                                                               2 006
     MA Y                                                                MA Y
           200 6                                                               200 6
     J UN                                                                J UN




20
           200 6                                                               200 6
      J UL                                                                J UL
           200 6                                                               200 6
     AUG                                                                 AUG
           200 6                                                               200 6
     SEP                                                                 SEP
           2006                                                                2006
     OC T                                                                OC T




                                           DESTINATING MAIL
                                                                                                                DESTINATING MAIL




           20 06                                                               20 06
     NO V                                                                NO V
           200 6                                                               200 6
     DEC                                                                 DEC
           20 06                                                               20 06
     J AN                                                                J AN
           20 07                                                               20 07
     FE B                                                                FE B
           200 7                                                               200 7
     MA R                                                                MA R
                                                                                                                                             APPENDIX F: ON-TIME PERFORMANCE




           2007                                                                2007
     APR                                                                 APR
                                                                                                    CHART 1. ON-TIME PERFORMANCE FOR 2-DAY




           2 007                                                               2 007
                                CHART 2. ON-TIME PERFORMANCE FOR 3-DAY


     MA Y                                                                MA Y
           200 7                                                               200 7
     J UN                                                                J UN
           200 7                                                               200 7
      J UL                                                                J UL
           200 7                                                               200 7
     AUG                                                                 AUG
           200 7                                                               200 7
     SEP                                                                 SEP
           2007                                                                2007
                                                                                                                                                                               EN-AR-08-004
Miami Airport Mail Center Outsourcing                                                                        EN-AR-08-004


     APPENDIX G: ON-TIME PERFORMANCE OF AMERICAN AIRLINES




                          CHART 3. AMERICAN AIRLINES ON-TIME
                                 PERFORMANCE - MIAMI

                  100
                   80
        PERCENT




                   60
                   40
                   20
                    0
                        OCT    NOV    DEC    JAN    FEB    MAR     APR    MAY    JUN    JUL    AUG    SEP
                        2006   2006   2006   2007   2007   2007    2007   2007   2007   2007   2007   2007
                                                           FISCAL YEAR 2007




                                                                  21
Miami Airport Mail Center Outsourcing                                                         EN-AR-08-004


                           APPENDIX H: FIVE ARTICLE 32 FACTORS

                                            Five Factors
                                   Postal Service                                 OIG
 Public Interest       Primary goal of Transformation         Overall, costs are reduced and service
                       Plan is to reduce costs and            performance is not adversely affected,
                       stabilize rates for customers. Use     which serves the public interest.
                       of a contractor provides a more
                       favorable bottom line for the Postal
                       Service and is in the best interest
                       of the public.

 Cost                  The combination of eliminating a       Outsourcing costs are less than the cost of
                       costly, oversized Postal Service-      maintaining, staffing, and operating the
                       maintained facility and properly       facility with Postal Service resources.
                       identifying requirements for a
                       replacement facility should
                       significantly reduce costs.
 Efficiency            The combination of eliminating a       Mail can be processed with fewer
                       costly, oversized Postal Service-      resources, resulting in improved efficiency.
                       maintained facility and properly
                       identifying requirements for a
                       replacement facility should
                       significantly improve efficiency.
 Availability of       The types and quantity of              No impact on equipment with either in-
 Equipment             containers and other equipment         house or outsourcing.
                       used will not change. There should
                       be no impact with either an
                       in-house or outsourced approach.
 Qualification of      Both Postal Service and contractor     Both Postal Service and contractor
 Employees             employees are equally qualified to     employees are qualified to tender and
                       provide the required services.         receive the mail.
 Conclusion            Outsourcing will have an impact on     Outsourcing is justified when it results in
                       Postal Service employees, but will     significant savings without a negative
                       improve processing efficiencies for    impact on service or efficiency.
                       mail transported by air and can be
                       achieved at a lower cost than using
                       Postal Service labor in a properly-
                       sized facility.




                                                   22
Miami Airport Mail Center Outsourcing                              EN-AR-08-004




                                        APPENDIX I: RISK FACTORS




                                                Redacted




                                                 23
Miami Airport Mail Center Outsourcing                             EN-AR-08-004




                              APPENDIX J: MANAGEMENT’S COMMENTS




                                            24
